                                                                                       (

                                                        NA TIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: AllOl0006                                                                       Page 1 of 1



                  We established that a PIl uploaded a draft copy of a proposaf into Fastlane, that the draft
          copy contained copied text and missing citations, and thatthe final version prepared by the PI did
          not contain the copied material. The proposal was returned without review by NSF as not
          responsive to the solicitation, and therefore was not processed through merit review. The PI was
          reminded of the standards of scholarship expected 'in NSF proposals, and the need for extra care
          in the proposal submission process.

                    Accordingly, this case is closed.




NSF QIG Form 2 (11/02)
